Memorandum from the Office of the Inspector General



January 20, 2009

Terrell M. Burkhart, WT 3A-K

FINAL REPORT – INSPECTION 2007-11481 – REVIEW OF TVA'S PURCHASING CARD
PROGRAM



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Rick C. Underwood, Project Manager, at
(423) 785-4824 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 785-4810. We appreciate the courtesy and cooperation received from your staff during
the inspection.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

DDS:BKA
Attachment
cc (Attachment):
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      John E. Long, Jr., WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      OIG File No. 2007-11481
                    Tennessee Valley Authority
                    Office of the Inspector General


Inspection Report



REVIEW OF TVA'S
PURCHASING CARD
PROGRAM



Inspection Team                 Inspection 2007-11481
Richard Underwood                    January 20, 2009
Janell Brodrick
Kristin Leach
Deana Scoggins
Office of the Inspector General                                                                  Inspection Report




TABLE OF CONTENTS
HIGHLIGHTS ..................................................................................................... i

BACKGROUND .................................................................................................1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 4

FINDINGS ......................................................................................................... 6

   KEY INTERNAL CONTROLS NOT FUNCTIONING AS INTENDED ............... 6
     Gaps Exist in Approving Officials' Review of Purchasing Card Charges ............... 6
     Gaps Exist in Cardholders' Review of Purchasing Card Charges ......................... 8
        Interviews With Cardholders ........................................................................ 8
        Analytical Review of Fraudulent Transactions ................................................ 9
     Transaction Limits Circumvented in Certain Cases............................................. 9
     Disallowed and Questionable and/or Potentially Abusive Charges ..................... 11
        Purchases Disallowed by TVA Policy .......................................................... 11

   TVA'S PURCHASING CARD PROGRAM INCORPORATES SOME BEST
   PRACTICES, BUT KEY ONES ARE ABSENT ............................................... 13
     Best Practices Incorporated by TVA's Program ................................................ 13
     Best Practices Not Incorporated by TVA's Program .......................................... 14
          Impact of Best Practices Not Incorporated in TVA's Purchasing
           Card Program ......................................................................................... 15

RECOMMENDATIONS .............. ...................................................................19


APPENDIX
MEMORANDUM DATED JANUARY 12, 2009, FROM TERRELL M. BURKHART
TO ROBERT E. MARTIN




Inspection 2007-11481
                                                        December 2008
                    TVA Office of the
                    Inspector                           INSPECTION 2007-11481
                    General                             REVIEW OF TVA'S PURCHASING
                                                        CARD PROGRAM
                  Background                            Findings
                                                        Internal control weaknesses in the TVA purchasing card program
The Office of the Inspector General (OIG) performed     expose the company to fraud, waste, abuse, and loss of assets.
this review to provide a comprehensive review of the    When testing internal controls over the program to identify and
TVA purchasing card program to the TVA Chief            assess their operating effectiveness and determine if they
Executive Officer.                                      incorporate identified best practices, the OIG asked cardholders
                                                        to provide documentation on selected transactions and
TVA's purchasing card program has grown                 interviewed cardholders and AOs regarding the transactions and
significantly in use since the TVA VISA purchasing      their participation in the purchasing card program. In summary,
card procedure was first issued in 1995. Usage has      key internal controls were not functioning as intended.
grown steadily from fiscal year (FY) 1997,              Specifically, we found:
$23 million in purchases, to the highest usage
point dollar-wise in FY 2003, approximately             • No, or inadequate, AO review of transaction supporting
$82.6 million.                                            documentation.
                                                        • No, or inadequate, cardholder review of supporting
In performing this review, the OIG:                       documentation for purchases made by someone other than the
                                                          cardholder. However, we did note instances where
• Obtained and reviewed background information            cardholders and/or AOs identified and properly handled
  relating to the TVA purchasing card program.            fraudulent transactions. However, TVA employees did not
• Identified controls currently in place over the TVA     report all instances of known or suspected waste, fraud, and
  VISA purchasing cards.                                  abuse or violation of the law to the OIG, as required by
                                                          Business Practice 2.
• Obtained and analyzed purchasing card data to
  determine areas and transactions of potential         • Transaction limit controls were bypassed by splitting purchases
  concern.                                                into multiple transactions.
• Identified best practices in government purchasing    • Purchases that were specifically disallowed by the VISA
  card programs and compared and contrasted               purchasing card procedure or disallowed by other TVA policies.
  those to TVA's VISA purchasing card procedure.        • Purchases where it appears the cardholder purchased an item
• Selected both a statistical and judgmental sample       for which government need was questionable.
  of purchasing card transactions for testing.
                                                        Some best practices for government purchasing cards were not
• Interviewed cardholders and approving officials       incorporated in the TVA purchasing card program. As a result,
  (AO).                                                 we found that:

Recommendations                                         • Lack of accountability and physical control over items
                                                          purchased lead to fraudulent transactions.
We make several recommendations in this report
                                                        • There is no documentation maintained of policy enforcement or
designed to improve the internal controls over the
                                                          discipline related to the purchasing card program.
purchasing card program.
                                                        • Regular system reviews and data mining to test for AO span of
                                                          control, split transactions, and infrequent use of the cards could
                                                          help strengthen control over the purchasing card program.




For more information, contact Robert E. Martin at
(865) 633-7450 or remartin@tvaoig.gov; or Gregory C.
Jaynes at (423) 785-4810 or gcjaynes@tvaoig.gov.



                                                                                                                   Page i
Office of the Inspector General                                                                                Inspection Report


BACKGROUND
In January 1995, TVA Procurement issued the TVA VISA purchasing card
procedure. The TVA VISA purchasing card, a small-dollar purchase mechanism
or alternative procurement method (APM), is managed by the Procurement
organization and is provided to TVA organizations for purchases of small-dollar
materials and services when it is determined to be the best procurement vehicle.
As a general rule, VISA purchasing cards are to be used for purchases up to and
including $5,000. The purchasing card can also be used in any emergency when
normal procurement methods are not available. TVA's purchasing card program
has grown significantly in use based on information obtained from the Integrated
Credit Card Solution (ICCS)1 since 1995. The low point in total dollar value of
purchases was in fiscal year (FY) 1997, approximately $23 million, and the
highest usage dollar-wise was in FY 2003, approximately $82.6 million. The
value of purchasing card expenditures was $75.6 million in FY 2007. Figure 1
shows the purchasing card transaction history for FYs 1995-2007.

Figure 1.

                                     TVA VISA Purchasing Card Transaction History
                                 $90,000,000                                                                       180,000 


                                 $80,000,000 
                                                                                                                   160,000 
     Dollar Value of Purchases




                                 $70,000,000 




                                                                                                                              Number of Transactions
                                                                                                                   140,000 

                                 $60,000,000 
                                                                                                                   120,000 
                                 $50,000,000 

                                                                                                                   100,000 
                                 $40,000,000 

                                                                                                                   80,000 
                                 $30,000,000 


                                 $20,000,000                                                                       60,000 
                                                 FY  FY  FY  FY  FY  FY  FY  FY  FY  FY  FY  FY  FY 
                                                1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007

                                    Dollar Value of Purchasing Card Transactions     Number of Purchasing Card Transactions



1
    The ICCS is a Web-based system for VISA purchasing cards. ICCS functions allow cardholders to view
    and print credit card statements, redistribute charges to multiple short codes, and perform online
    verification of statement charges. ICCS allows approving officials to view and approve cardholder
    charges online. Online verification and approval is required for each VISA statement and should be
    performed by the end of each month.
Inspection 2007-11481                                                                                                    Page 1
Office of the Inspector General                                                                                                 Inspection Report


While the purchasing card was initiated as a small-dollar purchase mechanism or
an APM, Figure 2 shows how much the purchasing card has been used for
purchases greater than $5,000. For example, in FY 2007 there were
2,240 transactions of more than $5,000, and these transactions totaled
$23,885,671.

Figure 2.

                                                            History of Purchasing Card Transactions With 
                                                             Transaction Amounts Greater Than $5,000
                                                          $35,000                                                                       3,000 
                                              Thousands




                                                          $30,000
                                                                                                                                        2,500 




                                                                                                                                                   Number of Transactions Greater Than $5,000
   Dollar Value of Transactions Over $5,000




                                                          $25,000
                                                                                                                                        2,000 

                                                          $20,000

                                                                                                                                        1,500 

                                                          $15,000

                                                                                                                                        1,000 
                                                          $10,000


                                                                                                                                        500 
                                                            $5,000



                                                                $0                                                                      0 
                                                                      FY  FY  FY  FY  FY  FY  FY  FY  FY  FY  FY  FY  FY 
                                                                     1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007

                                                          Value of Transactions Greater than $5,000   Number of Transactions Greater than $5,000

Since the establishment of the purchasing card program, the Office of the
Inspector General (OIG) has performed several reviews of compliance with the
VISA purchasing card procedure. The scope of our most recent report covered
purchasing card transactions through June 30, 2005. Our current review period
covered October 1, 2005, through December 31, 2007. During the current period
reviewed, there were 1,659 different purchasing cards used in over 308,000
transactions for a total of approximately $171.6 million. Recently, the TVA
President and Chief Executive Officer requested that the OIG perform a
comprehensive review of the TVA purchasing card program. Our analysis of

Inspection 2007-11481                                                                                                                     Page 2
Office of the Inspector General                                        Inspection Report


data from ICCS for the period under review identified the following 50 vendors
where the most purchasing card dollars were spent, as shown in Figure 3.

Figure 3.         PURCHASING CARD SPENDING – TOP 50 VENDORS

                                                 Dollars Spent      Transactions
                                                  With Vendor       With Vendor
                              Vendor Name
                                                 During Review     During Review
                                                     Period            Period
        1   PORTER WALKER                             12,825,596            8,203
        2   STAPLES                                    7,653,353           41,579
        3   THOMPSON MACHINERY                         3,368,320            3,904
        4   VERIZON                                    2,219,108              514
        5   VULCAN MATERIAL COMPANY                    2,035,183            2,925
        6   VF IMAGEWEAR                               2,009,810           12,310
        7   KWICK WAY TRANSPORTAION                    1,993,408              432
        8   LEWIS ELECTRIC SUPPLY                      1,926,114            4,342
        9   STOWERS MACHINERY                          1,834,192            3,154
       10   HERTZ EQUIPMENT                            1,814,685            1,311
       11   DIVERSIFIED SUPPLY INC                     1,765,152              862
       12   RENTAL SERVICE CORP                        1,642,888              920
       13   BOC GASES                                  1,624,299            1,049
       14   THOMPSON TRACTOR CO                        1,483,608            2,024
       15   AIRGAS                                     1,478,718            1,825
       16   ROGERS GROUP INC                           1,322,871            2,215
       17   DIRECT GAS AND OIL INC                     1,241,965              161
       18   FASTENAL CO                                1,240,756            5,305
       19   STOKES ELECTRIC CO                         1,221,027            1,280
       20   WAL-MART                                   1,109,896            7,784
       21   SUNBELT RENTALS                            1,095,673              513
       22   MCCARTHY JONES AND WOODAR                  1,057,620              278
       23   CONSOLIDATED PIPE & SUPPLY                   961,153            1,324
       24   WHAYNE SUPPLY COMPANY                        915,463            1,893
       25   EWING MOVING & STORAGE                       878,568              226
       26   LEXMARK                                      870,079            1,601
       27   SCIENTIFIC SALES                             838,914            1,652
       28   HANNAN SUPPLY CO INC                         814,064            1,033
       29   XPEDX                                        735,894            1,001
       30   WILLIAMS TRANSFER & STORAGE                  713,614              138
       31   UNITED RENTALS                               699,649              602
       32   GSA                                          697,000               93
       33   THURMAN-BRYANT ELECTRIC                      673,094            1,124
       34   IRVING MATERIALS                             621,934              563
       35   TRI CITIES TRUCK PARTS                       603,634              772
       36   YATES DIESEL REPAIR                          601,501              108
       37   G.B.I.                                       589,901              929
       38   A O SAFETY                                   572,795            5,982
       39   AMERICAN WELDING AND SAFETY                  568,037              173
       40   AMERICAN PAPER AND TWINE                     554,974            1,293
       41   HEARTLAND PUMP RENTAL INC                    544,365              147
       42   SOUTHERN LANDSCAPE MANAGEMENT                508,836               53
       43   RAM TOOL & SUPPLY                            475,046              546
       44   MADISONVILLE TIRE                            473,846              113




Inspection 2007-11481                                                              Page 3
Office of the Inspector General                                                        Inspection Report


                                                               Dollars Spent       Transactions
                                                                With Vendor        With Vendor
                          Vendor Name (cont.)
                                                               During Review      During Review
                                                                   Period             Period
         45   ANIXTER INC                                               466,366                742
         46   EDWARDS SUPPLY CO INC                                     466,072              1,109
         47   VARSITY HYDRAULIC & BRAKE                                 452,143                190
         48   PORT AGGREGATES INC                                       445,388                693
         49   COZY EXCAVATION & CONTRACTING                             445,111                 71
         50   SCOTT SPECIALTY GASES                                     443,951                666


TVA is currently in the process of attempting to reduce its non-fuel operations
and maintenance (O&M) expenses by $420 million over three years. As seen
above, the VISA purchasing card is the procurement vehicle for over $70 million
of TVA's annual non-fuel O&M spending. According to the Government
Accountability Office (GAO), "The potential for fraudulent, improper, and abusive
purchases in a purchase card program should be viewed by management as a
risk of significant financial loss; possibly resulting in operational inefficiency and
impairment of mission readiness …. Fraudulent, improper, and abusive
purchases often result directly from a lack of adherence to policies, procedures,
and control activities. This lack of adherence can result in misuse of the card.
As program personnel predisposed to misuse the card become aware of such
weaknesses, the door opens wider for fraudulent, improper, and abusive
purchases."2 Based on our analyses, opportunities exist to improve/strengthen
controls to prevent fraudulent and unnecessary spending.


OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of our review was to (1) identify and assess the operating
effectiveness of controls over the TVA purchasing card program and
(2) determine if they incorporate identified best practices. The scope of our
review included the TVA VISA purchasing card procedure and all purchases
made with the VISA purchasing card with a transaction date of October 1, 2005,
through December 31, 2007. To achieve our objectives, we:

•     Obtained and reviewed background information relating to the TVA
      purchasing card program such as TVA business practices and procedures.
•     Interviewed TVA personnel to discuss and obtain any additional information
      specifically relating to processes and controls currently in place over the TVA
      purchasing card program.
•     Used information obtained through interviews and review of documentation to
      identify controls currently in place over the TVA VISA purchasing cards.



2
    United States Government Accountability Office, Financial Management and Assurance, AUDIT GUIDE,
    Auditing and Investigating the Internal Control of Government Purchase Card Programs, November 2003,
    GAO-04-87G, Page 1.
Inspection 2007-11481                                                                             Page 4
Office of the Inspector General                                         Inspection Report


•   Obtained and performed analytical reviews of purchasing card data to identify
    potentially questionable transactions and dollar and transaction volume by
    vendor.
•   Identified best practices in government purchasing card programs and
    compared and contrasted those to TVA's VISA purchasing card procedure.
    The sources identified for best practices related to government purchasing
    card programs included the:
    –    President's Council on Integrity and Efficiency's (PCIE), "A Practical Guide
         for Reviewing Government Purchase Card programs," which noted best
         practices and also identified the following common control weaknesses:
         •   Inadequate review of purchases by approving officials (AO);
         •   Lack of documentation/inadequate documentation;
         •   Inadequate agency card directive;
         •   Inadequate and lack of training for cardholders and AOs;
         •   Credit card sharing; and
         •   Improper transactions.
    –    General Services Administration (GSA) SmartPay Purchase Card online
         training programs for cardholders and for AOs (i.e., purchase card
         program AO program coordinator (AOPC) training and purchase
         cardholder training).
    –    Office of Management and Budget's (OMB) Attachment 5 – Best Practices
         in Managing Government Charge Card Programs, to Circular A-123
         Appendix B, Improving the Management of Government Charge Card
         Programs.
    –    GAO's audit reports of other federal agencies' purchasing card programs.
    –    Association of Government Accountants (AGA) Corporate Partner
         Advisory Group report, "The Federal Purchase Card: Use, Policy, and
         Best Practice."
•   Selected a statistical sample of purchasing card transactions with transaction
    dates of October 1, 2005, through December 31, 2007, using discovery
    acceptance sampling for attributes with a critical error rate of 3 percent and a
    desired government risk of 5 percent. This resulted in a random sample with
    a size of 99 transactions. We also selected a judgmental sample of
    200 purchasing card transactions that occurred during the same time frame.
    We requested supporting documentation for these sample transactions to
    determine (1) if the transactions were in compliance with TVA policies and
    procedures and (2) if TVA AO and cardholder actions incorporated identified
    best practices.
•   Interviewed selected cardholders and AOs to obtain additional information on
    transactions reviewed, steps they followed to fulfill their responsibilities under

Inspection 2007-11481                                                             Page 5
Office of the Inspector General                                       Inspection Report


    the VISA purchasing card procedure, and any ideas they had for improving
    the program and procedures.

This inspection was conducted in accordance with the PCIE "Quality Standards
for Inspections."


FINDINGS
In summary, we determined that:

•   Key internal controls were not functioning as intended with regard to (1) the
    review of purchasing card transactions and their supporting documentation
    and (2) transaction limits.
•   Certain purchases were made that were disallowed by TVA policy or
    questionable in nature.
•   TVA's purchasing card program incorporates some best practices, but key
    best practices are absent.
•   TVA employees were not reporting all instances of known or suspected
    waste, fraud, and abuse or violation of the law to the OIG as required by
    Business Practice 2.

KEY INTERNAL CONTROLS NOT FUNCTIONING AS INTENDED
Our work uncovered significant lack of compliance with the controls established
by TVA policy. In particular, we found that the documentation supporting many
of the transactions was not reviewed. Some AOs were not obtaining and
reviewing supporting documentation, and some cardholders were not reviewing
their statements and the support for charges on them. In addition, we found that
some cardholders split transactions to avoid purchasing card transaction limits
and purchased items disallowed by policy or for which the business purpose was
questionable/abusive.

Gaps Exist in Approving Officials' Review of Purchasing Card Charges

The purchasing card procedure establishes clear responsibilities for AOs and
cardholders. The purchasing card program manager stated that each AO was
expected to perform monthly reviews not only of each online statement assigned
to them, but also of the supporting documentation (e.g., receipts, invoices,
justifications, and pre-approvals) for each of the transactions on the electronic
statement. The organizational expectation for this type of review is supported in
the VISA purchasing card procedure's Section 3.8, Roles, which specifies
specific responsibilities of the various parties involved in the purchasing card
program. The procedure requires that (1) cardholders provide the purchasing
card statement along with supporting documentation to the AO for review and
online approval and (2) organizations appoint AOs to electronically review and
Inspection 2007-11481                                                           Page 6
Office of the Inspector General                                                            Inspection Report


approve monthly statements and supporting documents for the purchasing cards.
In addition, Procurement's online training module for the purchasing card states
that "The Approving Official on-line monthly review and approval of charges is
the key internal review and control used to ensure proper usage of the
Purchasing Card."

For our review period October 1, 2005, through December 31, 2007, we found
that all statements had been approved electronically by a designated AO as
required by the TVA VISA purchasing card procedure. However, our analysis of
ICCS data provided indications that the AO review was not being performed as
intended by management. Specifically, some AOs were approving numerous
transactions and/or transactions for multiple cards within one day. For example,

•     One AO approved an average of 333 transactions or approximately
      $55,000 on the same day the charges were electronically verified.
•     Another AO approved an average of 203 transactions or approximately
      $46,000 on the same day the transactions were electronically verified.

Additional examples are provided in our analysis of the purchasing card
program's best practices later in this report. We noted in this review and in
previous reviews of purchasing card usage that:

•     Some AOs are approving purchasing card transactions for the cardholder or
      for multiple cardholders who are located throughout the Valley.
•     Cardholders often share a purchasing card with other TVA employees or
      contractors. The cardholder is responsible for ensuring the charges are valid
      and obtaining a receipt for the transactions.

In addition, when we interviewed 16 AOs and 28 cardholders,3 we found that:

•     Out of the 16 AOs, 7 stated they were not reviewing supporting
      documentation for the transactions on the monthly card statements they were
      approving. AOs who stated they were not reviewing the supporting
      documentation for the transactions on statements they approved asserted
      that they were "following the procedure." For example, a manager within
      Procurement who was also an AO told us that the procedure did not require
      him/her to review supporting documentation for transactions on the
      statements he/she approved. This indicates a clear disconnect between the
      AOs and the expectations of management for how the internal control should
      function.
3
    In our planned interviews with AOs and cardholders about the purchasing card processes and procedures
    they follow each month, we specifically addressed the review of supporting documentation. Our review
    period included statements for 1,659 different purchasing cards approved by 546 different individuals. We
    questioned 16 of the 546 AOs and 28 cardholders about the purchasing card program. Not only did we
    request explanations for specific transactions in our review sample, we also requested the selected AOs
    and cardholders explain (1) how the purchasing card program works for them and (2) what processes and
    procedures they follow each month.
Inspection 2007-11481                                                                                 Page 7
Office of the Inspector General                                                             Inspection Report


•     Out of the 28 cardholders, 10 stated they were not providing their AO
      supporting documentation for approval of the monthly statement applicable to
      their card. One of these AOs was in the group of AOs that told us they did
      not review supporting documentation.

Statements where supporting documentation was not reviewed by an AO
encompassed purchases totaling approximately $47.5 million or 26.82 percent4
of the dollar amount of the purchases approved on card statements during our
review period.

Gaps Exist in Cardholders' Review of Purchasing Card Charges

The VISA purchasing card procedure establishes responsibilities for the holder of
a TVA purchasing card. Among these responsibilities are the requirements to
monthly, upon receipt of the statement:

•     Immediately dispute any items not charged by the cardholder. If an item
      appears on the statement which cannot be substantiated, the cardholder
      should complete form TVA 24001 within 60 days and e-mail it to First
      Tennessee Bank.
•     Request credit for any inadvertent sales taxes charged.
•     Attach all receipts to the statement in the same order as they appear on the
      statement, transfer charges to the proper short code and cost class using
      ICCS, and electronically verify the statement indicating all charges are correct
      or have been disputed. In addition, if an organization or cardholder chooses
      to share a purchasing card among TVA employees, the cardholder is
      responsible for ensuring that any charges are valid and obtaining receipts for
      them.

While our interviews of the 28 cardholders found TVA's purchasing card program
controls were often not functioning as intended, our analytical review of
purchasing card transactions noted that some cardholders were adhering to
procedural guidelines. Specifically, the cardholder and/or AOs identified
fraudulent transactions through their review and followed proper procedure to
have TVA credited for the transaction.

Interviews With Cardholders
Four of the twenty-eight cardholders we interviewed told us that they did not
review supporting documentation for their monthly statements. We also noted
that:

•     One cardholder, who has six purchasing cards in his/her name, stated that
      not only does he/she not review supporting documentation for transactions,

4
    While the total amount of transactions for the time frame reviewed was $171.6 million, the statements that
    covered the same time frame amounted to approximately $177 million. In essence, statement cutoff
    dates result in timing differences.
Inspection 2007-11481                                                                                  Page 8
Office of the Inspector General                                      Inspection Report


    the AO does not as well. During our review period, over $5.9 million was
    placed on purchasing cards in this individual's name.
•   One could not provide information for twenty $19.95 Hotmail charges that
    were paid with the TVA purchasing card over a two-year period. Neither the
    cardholder nor the AO knew what the charges were for or who had made the
    charges.

Analytical Review of Fraudulent Transactions
Our data mining identified transactions that TVA had questioned and successfully
challenged. There were 50 transactions during the period under review that
indicated the purchasing card was being credited for a fraudulent transaction or a
balance was being transferred to a new card because of a fraudulent transaction.
Cardholders had followed the VISA purchasing card procedure and filed disputes
with the bank against fraudulent purchases that appeared on the card and
subsequently obtained refunds. These transactions included the following
vendors and amounts:

•   United Air (over $20,000)
•   RF Services Inc. (nearly $11,000)
•   North American Airline (nearly $3,000)
•   Wedding Bands.com (nearly $2,500)
•   Alitalia (over $1,000)
•   TA Electric (nearly $800)
•   JVC Service & Engineering (over $300)

None of these fraudulent transactions were reported to the OIG as required by
Business Practice 2. When questioned, the purchasing card program
coordinator asserted that there was no fraud involved because TVA received its
money back. While TVA suffered no financial loss on these transactions, the
cards were compromised. For example, an AO explained that a TVA vendor
took a purchasing card number and used it for nearly a month until the
cardholder identified the fraudulent transactions during the monthly reconciliation
process. The case was reported to the local sheriff and TVA Police but not to the
OIG. The perpetrator of the fraud was arrested, pled guilty, and is currently
serving three years in a state prison.

Transaction Limits Circumvented in Certain Cases

As stated in Section 3.4 of the VISA purchasing card procedure, as a general
rule the TVA purchasing card has a $5,000 per purchase transaction limit,
excluding emergencies. Purchases over $5,000 are to be approved only with
appropriate justification, which is to be reviewed on a case-by-case basis and
must generally conclude that the purchasing card is the most efficient and


Inspection 2007-11481                                                          Page 9
Office of the Inspector General                                                          Inspection Report


effective way to acquire and pay for the materials or services. According to the
procedure, purchases over $5,000 may be approved as follows:

•      Approval for cardholders to exceed the $5,000 limit may be obtained by
       sending a request with appropriate justification to the VISA purchasing card
       manager. Procurement will give prompt verbal approval followed by written
       approval to the requester. The written approval sent to the requester is
       maintained with the cardholder statement in which the charge appears.
•      Emergency purchases that exceed the $5,000 limit are documented after the
       fact within ten days with justification to the VISA purchasing card manager.
       The justification should be maintained with the cardholder statement in which
       the charge appears.

Our review of supporting documentation for 299 sample transactions identified
two purchases that were split into five transactions to bypass the transaction limit
control. GAO categorizes these types of transactions as improper.5 The
supporting documentation provided by the cardholders verified that a single
transaction would have exceeded the specific purchasing card's transaction limit
and had been split into multiple transactions which fell below the cardholder's
transaction limit. These two purchases included:

•      Two transactions with Praxair Distribution, Inc., on October 29, 2007. One of
       the transactions was for $5,000 (the card transaction limit), and the second
       was for the remaining amount of the total transaction of $3,457.05.
       Supporting documentation provided by the cardholder was one receipt
       totaling $8,457.05 for the purchase of compressed helium, hydrogen, and
       nitrogen.
•      Three transactions with Vulcan Materials Company for $7,132.68―all dated
       October 11, 2006. Supporting documentation provided by the cardholder was
       one receipt totaling $21,398.04―the sum of the three separate transactions.
       The cardholder's transaction limit was $10,000.

In addition, during interviews with 16 AOs and 28 cardholders, we were told that
they, or others using cards assigned to them, had split transactions in the past to
bypass the transaction limit control. We also saw some indication of split
transactions in our audit population including more than 1,000 occurrences of
transactions made with the same card at the same vendor on the same date.
Our audit experience has found that these are not always split transactions but
sometimes are.




5
    United States Government Accountability Office, Financial Management and Assurance, AUDIT GUIDE,
    Auditing and Investigating the Internal Control of Government Purchase Card Programs, November 2003,
    GAO-04-87G, Page 13.
Inspection 2007-11481                                                                            Page 10
Office of the Inspector General                                                             Inspection Report


Disallowed and Questionable and/or Potentially Abusive Charges

We identified purchases in our sample of 299 transactions that were specifically
disallowed by TVA policy or were questionable or potentially abusive. We define
questionable and/or abusive purchases as those purchases where the conduct of
personnel making the purchase falls short of societal expectations of prudent
behavior, and/or documentation/justifications do not clearly support that a
business need exists or potential benefits warranted the expenditures. We used
GAO6 guidelines and criteria used in previous OIG reviews to formulate the
definition. Our data mining identified numerous examples of improper and
potentially abusive transactions based on Merchant Category Code (MCC),7
descriptive text, identified vendors, and purchase dates (e.g., holidays and
weekends).

Purchases Disallowed by TVA Policy
From the sample of 299 transactions we reviewed, we found 15 purchases
totaling $15,078 that were disallowed by the purchasing card policy, as shown in
Figure 4.

Figure 4. Transactions in Sample Disallowed by Purchasing Card
          Procedure

                                                                           Number of            Dollar
                     Category of Purchases                               Transactions          Value of
                                                                          in Samples          Purchases
    Furniture                                                                  2               $ 7,116.95
    Charges With Sales Tax                                                     4                  $654.79
    Heavy Equipment Rental8                                                    1                $4,088.00
    Tuition                                                                    1               $2,093.00
    Computer Software                                                          2                 $ 434.12
    Travel                                                                     1                  $421.11
    Individual Memberships in Professional Organizations                       2                  $140.00
    External Training                                                          1                  $125.00
    Cold Medicine included in the purchase of multiple                         1                    $5.00
    items that could be work related from Wal-Mart9
       Totals                                                                   15             $15,077.97

We also found four purchases totaling $8,262 that were disallowed by other TVA
policies but not specifically mentioned in the purchasing card policy. These are
shown in Figure 5.

6
    United States Government Accountability Office, Purchase Cards, Increased Management Oversight and
    Control Could Save Hundreds of Millions of Dollars, April 2004, GAO-04-717T, Page 6.
7
    The MCC relates to the types of supplies or services that a vendor provides. Agencies have the ability to
    prohibit cardholders from purchasing certain supplies or services by blocking specific MCCs.
8
    This transaction was disallowed by the VISA Procurement Card Procedure at the time it was made.
    However, the VISA Procurement Card Procedure was revised March 24, 2008, to include heavy
    equipment rental as an allowed purchase.
9
    While this amount is nominal, it has been included to show the ease of which personal items can be
    commingled with TVA-related purchases and, based on the lack of review, will not be identified.
Inspection 2007-11481                                                                                Page 11
Office of the Inspector General                                      Inspection Report


 Figure 5. Transactions in Sample Disallowed by TVA Policies Other Than
           the Purchasing Card Procedure

                                                          Number of    Dollar
                     Category of Purchases              Transactions Value of
                                                         in Samples Purchases
 Contributions                                                3      $ 8,224.56
 Licensing                                                    1          $37.62
    Totals                                                    4       $8,262.18

Questionable and/or Potentially Abusive Transactions

Based on the description, our review identified some transactions that appeared
questionable and/or potentially abusive. Based on the submitted supporting
documentation related to the transactions, we found no or inadequate
justifications or supporting documentation to show a business need or that
potential benefits warranted the expenditures. Specifically, we noted instances
where it appears the cardholder purchased an item for which government need
was questionable. These transactions included:

•   Purchases of alcohol for TVA employee meetings and training, not for
    hospitality purposes. While TVA's Hospitality Policy states that the purchase
    of alcohol is allowed in defined quantities and amounts, we questioned these
    transactions since two cardholders told us that TVA's Board of Directors does
    not allow such purchases for any meetings that include Board members. We
    identified three such transactions in our sample of 299, and another four were
    identified from supporting documentation submitted for other transactions in
    our sample. Examples of these transactions include:
    – $98 dollars of wine, $100 of beer, $87 of liquor and wine, and $111 of beer
      purchased in various transactions in conjunction with Procurement
      Supervisor Workshops.
    – $118 of beer, $39 of wine, $121 of candy, soda, and beer purchased in
      various transactions in conjunction with a Materials Management off-site
      meeting.
•   Purchases from department stores of clothing identified as "uniforms" for
    Management and Specialist schedule personnel that were not of a safety-
    related nature and that could be worn during non-work hours. In most cases,
    discussions with the cardholders indicated that these uniform purchases were
    part of an annual allowance. Discussions with cardholders and Human
    Resources personnel indicated that these purchases were not made in
    relation to any current TVA policy, procedure, or job description.
•   A purchase of $393 of Carhartt winter clothing that we were told was made
    annually.
•   A purchase of a nearly $300 "white noise" noise reduction system for a
    corporate apartment to cover road noise in the evening to allow quieter
    sleeping conditions.
Inspection 2007-11481                                                         Page 12
Office of the Inspector General                                      Inspection Report


•   A purchase of software used to erase evidence of Internet usage. When this
    transaction was discussed with the cardholder and AO, neither was able to
    tell us what the purchase was or for whom it was made even though the
    cardholder had a receipt for the purchase. This software was not an
    approved purchase through Information Services.

We also found in our review a large volume of purchases which appeared
potentially questionable. Specifically, over $180,000 a year for the last two years
was spent on personal items such as X-Boxes, TVs, TiVos, DVD players, and
yard equipment. Upon review, we found that these purchases were made by
Power System Operations (PSO) for safety awards. The award recipients were
documented and the appropriate documentation was provided to Payroll
Operations for proper tax treatment. The appearance of these purchases to the
consumers of TVA's power should be carefully considered, given their nature and
amount.

TVA'S PURCHASING CARD PROGRAM INCORPORATES SOME
BEST PRACTICES, BUT KEY ONES ARE ABSENT

We reviewed documentation from GAO, GSA, OMB, PCIE, and AGA to identify
best practices associated with purchasing card programs. We found many have
been incorporated in some form by TVA. However, other best practices were
identified that are not incorporated in TVA's purchase card program, which TVA
management should consider.

Best Practices Incorporated by TVA's Program

Based on discussions with the TVA purchasing card program manager and
review of TVA policies and procedures, the following best practices were found to
be incorporated in the TVA purchasing card program in some form. Specifically,
the TVA purchasing card program:

•   Requires AO review of the cardholder's reconciliation.
•   Requires the AOPC to set appropriate authorization controls when
    establishing every cardholder account such as (1) dollars per transaction or
    dollars per month limits and (2) transaction limits.
•   Makes training mandatory.
•   Uses electronic access reports to monitor activity.
•   Requires periodic review of the number of charge card accounts for
    appropriateness.
•   Employs purchase card restrictions such as MCC blocks.
•   Requires cardholders be (1) aware of any agency-wide contracts that will
    yield better pricing and (2) aware of policies for using these contracts.


Inspection 2007-11481                                                        Page 13
Office of the Inspector General                                                       Inspection Report


•    Prescribes that internal charge card program reviews be done on a regular
     basis to ensure internal control mechanisms are adequate.
•    Dictates that accounts under review for questionable activity will be
     deactivated, suspended, or canceled.
•    Uses data warehousing to identify purchasing trends.

While the above best practices have been incorporated into the TVA purchasing
card program to some extent, there is still room to improve the control provided
by some of these items. Documentation in the Risk Control Tracking System
(RCTS) states that training is mandatory for all cardholders and AOs, but this is
not addressed in the VISA purchasing card procedure. In addition, TVA currently
allows the sharing of purchasing cards which can result in individuals using the
card who are not required to undergo any training or acknowledge understanding
of the VISA purchasing card procedure.

We also determined that few MCC blocks are employed on TVA purchasing
cards. The purchasing card program coordinator informed us that the only MCC
codes blocked are those for QVC,10 the home shopping network and cash
advances. Some potentially abusive transactions may have been avoided if TVA
blocked more MCC codes (e.g., liquor stores, department stores, airlines, etc.).

Best Practices Not Incorporated by TVA's Program

Other best practices were identified that are not incorporated in TVA's purchase
card program and that TVA management should consider. They would enhance
the level of internal control over the TVA purchasing card program. These best
practices, along with specific examples of activities to achieve them, are
highlighted below.

•    Span of Control
     –   GSA recommends that the ratio of AOs to cardholders is not more than
         1:7 (assuming an average of six or seven transactions per cardholder
         each month). An alternate ratio is the ratio of AOs to the number of
         monthly transactions, which would be no more than 1:50.
•    Accountability
     –   Allow only the person assigned the card to use it.
     –   Issue purchase cards in controlled, limited quantities (e.g., special
         justification and authorization for more than one card per cardholder) and
         only to government employees with legitimate needs to have the cards.11


10
   QVC is a West Chester, Pennsylvania, USA, multinational corporation specializing in televised home
   shopping.
11
   United States Government Accountability Office, Financial Management and Assurance, AUDIT GUIDE,
   Auditing and Investigating the Internal Control of Government Purchase Card Programs, November 2003,
   GAO-04-87G, Page 22.
Inspection 2007-11481                                                                          Page 14
Office of the Inspector General                                         Inspection Report


    –    Credit worthiness evaluations for new purchase card applicants.
•   System Reviews/Data Mining
    –    Perform periodic review evaluating the span of control for AOs.
    – Deactivate cards that are used infrequently and may not be needed.
    –    Review for split transactions.
•   Policy Enforcement/Discipline
    –    Provide candid and constructive counseling, performance appraisals, and
         discipline to reinforce the system of internal control.
    – Document corrective actions taken to identify and limit repeat offenders.
•   Physical Control Over Items Purchased
    –    Maintain physical control and accountability over pilferable property.
    –    Segregate the functions of purchasing and receiving items.
•   Refer Suspected Fraud to the Agency's OIG
•   Selection of Banking Partner
    –    Provide for open competition and vendor rotation.
    –    Factor the costs involved in transitioning to a new vendor bank.

Impact of Best Practices Not Incorporated in TVA's Purchasing Card Program
Several of the compliance problems we identified during our review may have
been avoided if the above best practices were in place. Specifically:

•   Span of Control and the Review and Approval of Transactions ― If the span
    of control of AOs was reviewed on a regular basis and held to the levels
    recommended by GSA, AOs would be able to perform more detailed reviews
    of transaction documentation with less impact on their other job duties. Our
    review of ICCS data found that the statements from the period under review
    included 1,659 different credit cards that were approved by 546 different
    individuals. Of the 546 AOs, we identified 57 whose span of control
    exceeded the number of statement and/or number of transaction limits
    recommended.
    Each of these AOs also showed up on our analysis to identify statements that
    had been approved within two days of the electronic verification by the
    cardholder, indicating that the approval may have been a "rubber stamp."
    These 57 AOs approved over $74 million in charges within two days of the
    statements being verified by the cardholder. This leads further credence to
    the GSA and GAO guidance that these numbers of transactions are more
    than can be properly reviewed by a single individual.
    We also noted that for our review period, the largest span of control, based on
    the number of transactions reviewed and approved, was an average of
    1,215 transactions a month with an average value of $840,000. This AO
Inspection 2007-11481                                                             Page 15
Office of the Inspector General                                                   Inspection Report


    approved 315 statements with purchases of over $18 million in two days or
    less from the time they were verified by the cardholder. Discussions with the
    AO revealed that he was not reviewing any documentation and only saw the
    online statement. Of the AOs who exceeded recommended span-of-control
    guidelines, the top 20, based on average monthly dollar value of transactions
    approved, are shown in Figure 6.

    Figure 6. Top 20 AOs Who Exceeded Span-of-Control Guidelines
              (Based on Dollar Value of Transactions Approved)
         Average Number of               Average Number of
                                                                       Average Dollar Value of
        Statements Approved            Transactions Approved
                                                                     Purchases Approved Monthly
              Monthly                         Monthly
                                  16                      1,215                      840,545.86
                                  10                           167                   382,163.89
                                  7                            264                   305,259.37
                                  7                            417                   296,540.35
                                  1                            194                   238,835.31
                                  6                            383                   205,676.22
                                  4                             86                   171,365.82
                                  1                            216                   157,508.41
                                  6                             86                   116,108.10
                                  2                            131                   107,631.36
                                  4                             89                   106,691.27
                                  3                            151                    94,202.89
                                  4                             56                    93,389.39
                                  4                            172                    88,322.54
                                  2                             90                    87,147.78
                                  4                            105                    79,997.01
                                  4                             86                    78,009.15
                                  9                            163                    76,643.20
                                  3                            105                    73,862.31
                                  3                            179                    73,816.97
       GSA Recommended
       Maximum                                                  50

For the AOs whose span of control exceeded identified guidelines, the total
average monthly dollar value of purchases approved accounted for
approximately $4.8 million or 74 percent of the total average purchases made
with purchasing cards per month (i.e., $6.6 million). We believe that with spans
of control this large, appropriate review of cardholder statements and the
supporting documentation for transactions may be difficult. A proper AO and
cardholder review might have identified some of the problematic or questionable
transactions identified above.


Inspection 2007-11481                                                                     Page 16
Office of the Inspector General                                        Inspection Report


•   Accountability and Physical Control Over Items Purchased ― We were
    notified of an incident that occurred during our review period where a
    manager for a contractor had worked at a TVA site for 14 years and used a
    purchasing card assigned to a TVA employee to purchase more material than
    was needed for the TVA jobs he was supporting. The materials and tools
    were used in a personal business venture, as well as personal use. When
    asked in interviews with TVA Police personnel why he had so many TVA tools
    at his property, he replied, "It was too easy." When asked for clarification of
    this comment, he said, "I have purchased TVA tools for so long and gotten
    away with taking them home to use without being questioned, it just was too
    easy." At the time TVA Police searched the individual's property, they
    recovered over $20,000 in TVA property.
    In this particular case, we believe the fraudulent transactions could have been
    prevented if (1) only the person assigned the card had used it, (2) physical
    control and accountability had been obtained over the pilferable property,
    (3) there had been a segregation of purchasing from receiving of the property,
    and (4) the AO or cardholder had knowledge of the work for which the
    purchases were intended and had compared quantities and items purchased
    to the defined scope of work for the jobs.
    TVA's policy of allowing sharing of cards and issuing cards to non-
    government employees (contractors) can contribute to the lack of
    accountability. Supporting documentation enabled us to verify that out of
    our sample of 299 transactions, 51 were not made by the cardholder.
•   Documentation of Policy Enforcement or Discipline ― When we asked the
    purchasing card program coordinator about documentation of any
    administrative action taken against those employees not complying with the
    VISA purchasing card procedure, we were told that no records were kept of
    any action taken because she did not take any action. For the purchasing
    card program, any violations are communicated with the cardholder and AO
    via e-mail and it is left to the AO or the cardholder's supervisor to enact any
    discipline, and the purchasing card program coordinator did not feel she
    should be privy to any of those actions.
    According to GAO, "Repeated non-adherence to established internal control
    policies and procedures, such as inadequate documentation of purchase card
    transactions or supervisory reviews, may not constitute a violation of law or
    regulation. However, if allowed to continue, they will contribute to erosion and
    weakening of the control system. Prompt administrative and disciplinary
    actions (e.g., informal admonishment, formal reprimand, additional required
    training, suspension of card privileges, cancellation of the cardholder's
    account, and termination of employment) can be effective in reducing
    persistent lack of adherence to policies and procedures by cardholders and
    other program personnel. When administrative corrective actions are taken
    and documented, program management, oversight personnel, and auditors
    will be able to identify repeat offenders and determine that appropriate steps


Inspection 2007-11481                                                          Page 17
Office of the Inspector General                                                          Inspection Report


     are being taken to address potentially significant problems before they
     escalate." 12
•    System Reviews/Data Mining ― Data mining and analysis enabled us to
     identify the previously discussed span-of-control and split transaction issues.
     These same methods could be used by TVA management on a regular basis
     to identify potential problems. In addition, data mining can help identify cards
     that are used infrequently and may not be needed. Our analysis showed that
     210 of 982 cards averaged less than one transaction per month for the period
     of October 2006 through December 2007. Another 256 cards averaged three
     or fewer transactions per month during the same period. There were
     25 cards closed during our review period, 19 of those due to the employee
     leaving TVA through termination or retirement, according to our review of
     People Warehouse data.13
•    Refer suspected fraud to the agency's OIG ― During our review, we identified
     instances of known and suspected fraud that had not been reported to the
     OIG by TVA employees. In addition to not adhering to best practices, this
     violates TVA Business Practice 2. There were 50 transactions during the
     period under review that indicated the purchasing card was being credited for
     a fraudulent transaction, a balance was being transferred to a new card
     because of a fraudulent transaction, or a transaction was in dispute because
     of a fraudulent transaction. When questioned about these charges, the
     purchasing card program coordinator asserted that there was no fraud
     involved because TVA received its money back.
     While TVA apparently suffered no financial loss on these transactions, fraud
     was involved. In one instance we were told of when interviewing the AO, an
     employee of a TVA vendor took a purchasing card number and used it for
     nearly a month until the cardholder identified the fraudulent transactions
     during the monthly reconciliation process. The case was reported to the local
     sheriff and TVA Police, but not to the OIG. The perpetrator of the fraud was
     arrested, pled guilty, and is currently serving three years in a state prison.
•    Competitively Bid Purchasing Card Banking Agreement ― TVA recently
     renewed its purchasing card agreement with the applicable financial
     institution, effective April 1, 2008. Based on discussions with the purchasing
     card program coordinator and review of documentation provided, TVA did not
     have an open competition for a banking partner for the purchasing card
     program. However, they did compare publically available information on
     rebate amounts from banks participating in the GSA SmartPay program to the
     rebates provided by the current banking partner. According to Procurement,
     the rebate percentage was higher than all other percentages reviewed, and
     therefore Procurement believed no other solicitation was necessary.

12
   United States Government Accountability Office, Financial Management and Assurance, AUDIT GUIDE,
   Auditing and Investigating the Internal Control of Government Purchase Card Programs, November 2003,
   GAO-04-87G, Page 11.
13
   When performing our analysis of infrequently used cards, we wanted to ensure that we were not looking at
   newly issued cards. To accomplish this, we only included cards in our analysis that showed a status of
   "Active" and whose status date was October 1, 2006, or earlier.
Inspection 2007-11481                                                                             Page 18
Office of the Inspector General                                        Inspection Report


RECOMMENDATIONS
We recommend that the Vice President (VP), Procurement, consider:

•   Revising the VISA purchasing card procedure to explicitly state that the AO's
    responsibilities include:
    –    A review of supporting documentation for transactions on the monthly
         cardholder statements prior to approval, and
    –    Notifying the purchasing card program coordinator when cardholders do
         not provide adequate supporting documentation for the transactions on
         their monthly statement.
•   Revising the VISA purchasing card procedure to address the requirement for
    cardholder and AO training included in the RCTS.
•   Revising the VISA purchasing card procedure section regarding disallowed
    purchases to include contributions and licensing.
•   In consultation with the Executive Vice President (EVP), PSO, whether
    continued purchase of personal items for safety awards in the PSO group is
    appropriate, given the appearance to the consumers of TVA's power.
•   Implementing identified best practices listed above that are not currently
    incorporated into the TVA purchasing card program including:
    –    Allowing only the person assigned the card to use it,
    – Only issuing cards to government employees with legitimate needs to
      have the cards,
    –    Implementing additional MCC code blocks,
    –    Implementing segregation of receiving and purchasing of items,
    –    Implementing property control systems for pilferable items,
    –    Implementing data mining specifically geared toward identifying span-of-
         control issues, infrequently used cards, and split transactions, and
    –    Documenting corrective actions and counseling in order to identify repeat
         problems.
•   Revising the VISA purchasing card procedure to include the requirement to
    report instances of known or suspected waste, fraud, abuse, or violation of
    law to the OIG consistent with the requirement currently in Business
    Practice 2.

Management's Response – The VP, Procurement, provided comments on a
draft of this report. The VP, Procurement, agreed to implement our
recommendations regarding:




Inspection 2007-11481                                                          Page 19
Office of the Inspector General                                      Inspection Report


•   Revising the VISA purchasing card procedure to explicitly state that the AO's
    responsibilities include a review of supporting documentation for transactions
    prior to approval.
•   Revising the VISA purchasing card procedure to address the requirement for
    cardholder and AO training.
•   Revising the VISA purchasing card procedure section regarding disallowed
    purchases to include contributions and licensing.
•   Determining, in consultation with the EVP, PSO, whether continued purchase
    of personal items for safety awards in PSO is appropriate.
•   Implementing additional MCC code blocks.
•   Implementing property control systems for pilferable items.
•   Implementing data mining specifically geared toward identifying span-of-
    control issues, infrequently used cards, and split transactions.
•   Documenting corrective actions and counseling in order to identify repeat
    problems.
•   Revising the VISA purchasing card procedure to include the requirement to
    report instances of known or suspected waste, fraud, abuse, or violation of
    law to the OIG.

In response to our recommendations, management has revised the VISA
purchasing card procedure to (1) state that the AO's responsibilities include
review of supporting documentation for transactions prior to approval,
(2) address the requirement for cardholder and AO training, (3) include
contributions and licensing in the section regarding disallowed purchases, and
(4) include the requirement to report instances of known or suspected waste,
fraud, abuse, or violations of law to the OIG. Additionally, management has
(1) eliminated, in consultation with the EVP, PSO, the purchase of personal items
for safety awards in the PSO group; (2) implemented additional MCC code
blocks; (3) made AOs responsible for detecting pilferable items and verifying
receipt; and (4) implemented data mining geared toward identifying span-of-
control issues, infrequently used cards, and split transactions. Management also
plans to update online training to include implementation of controls over
pilferable items, begin maintenance of records of split transactions to identify
problem cardholders and suspend cards, and reduce the span of control between
AOs and cardholders to no more than seven.

The VP, Procurement, disagreed with our recommendations regarding:

•   Notifying the purchasing card program coordinator when cardholders do not
    provide adequate supporting documentation. The VP, Procurement, stated:
    "We do not see the benefit of [notifying the purchasing card program
     coordinator] for the following reasons:


Inspection 2007-11481                                                        Page 20
Office of the Inspector General                                       Inspection Report


     Procedurally, approving officials have the responsibility of assuring each
      cardholder has a receipt for all transactions prior to approval.
     The purchasing card program coordinator will continue to perform reviews
      of cardholders' statements and receipts."
•   Allowing only the person assigned the card to use it. The VP, Procurement,
    stated:
    "We disagree with the recommendation but have strengthened the P card
     procedure and annual training to include language requiring anyone sharing
     their card to complete the annual training."
•   Implementing segregation of receiving and purchasing. The VP,
    Procurement, stated:
    "The P card was established as a convenience mechanism to acquire small
     dollar items and promote efficiency and productivity. To meet the
     recommendation would require sending two people to the store – one to
     purchase the item and the other to receive."

Additionally, management has not finalized a decision regarding only issuing
cards to government employees. Management plans to discuss this with each
business unit to determine if alternatives are feasible and then follow up with the
OIG following those discussions.

(The complete text of the VP's, Procurement, comments is provided in the
Appendix.)

Auditor's Comments – We concur with TVA management's actions or planned
actions with regard to the following recommendations:

•   Revising the VISA purchasing card procedure to explicitly state that the AO's
    responsibilities include a review of supporting documentation for transactions
    prior to approval.
•   Revising the VISA purchasing card procedure to address the requirement for
    cardholder and AO training.
•   Revising the VISA purchasing card procedure section regarding disallowed
    purchases to include contributions and licensing.
•   Determining, in consultation with the EVP, PSO, whether continued purchase
    of personal items for safety awards in PSO is appropriate.
•   Implementing additional MCC code blocks.
•   Implementing property control systems for pilferable items.
•   Implementing data mining specifically geared toward identifying span-of-
    control issues, infrequently used cards, and split transactions.
•   Documenting corrective actions and counseling in order to identify repeat
    problems.
Inspection 2007-11481                                                         Page 21
Office of the Inspector General                                     Inspection Report


•   Revising the VISA purchasing card procedure to include the requirement to
    report instances of known or suspected waste, fraud, abuse, or violation of
    law to the OIG.

While Procurement did not agree with our recommendations regarding
(1) notifying the purchasing card program coordinator when cardholders do not
provide adequate supporting documentation, (2) allowing only the person
assigned the card to use it, and (3) implementing segregation of receiving and
purchasing, we note that continuing these practices increases the risks of abuse,
misuse, and fraud pertaining to VISA purchasing card use, and Procurement
should implement additional monitoring controls, where appropriate.




Inspection 2007-11481                                                       Page 22
APPENDIX
Page 1 of 4
APPENDIX
Page 2 of 4
APPENDIX
Page 3 of 4
APPENDIX
Page 4 of 4
